           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   SUPPLEMENTAL SECURITY INCOME
    OVERPAYMENTS TO RECIPIENTS
      IN TITLE XIX INSTITUTIONS

    June 2006    A-08-06-16024




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY
MEMORANDUM

Date:   June 26, 2006                                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Supplemental Security Income Overpayments to Recipients in Title XIX Institutions
        (A-08-06-16024)


        OBJECTIVE
        Our objectives were to (1) determine the status of overpayments to Supplemental
        Security Income (SSI) recipients living in Title XIX 1 institutions and (2) assess the Social
        Security Administration’s (SSA) efforts to prevent overpayments from occurring.

        BACKGROUND

        SSI payments are available under Title XVI of the Social Security Act to people who are
        aged, blind, or disabled and have limited income and resources. 2 Residence in a
        Title XIX institution 3 can affect an SSI recipient’s eligibility and/or payment amount. In
        cases where SSI recipients are expected to be permanent residents for a full calendar
        month in these institutions and Medicaid pays over 50 percent of the costs of that care,
        the maximum SSI Federal payment is limited to $30 per month. The payment reduction
        is applicable beginning with the first full month of permanent residence. 4

        SSA attempts to prevent overpayments to SSI recipients in Title XIX institutions by
        relying on recipient and representative payee self-reporting. 5 In addition, SSA requires
        that its field offices work with institutions in their service areas to facilitate the flow of
        information regarding SSI recipients. 6 The Social Security Domestic Employment

        1
            Social Security Act, Title XIX, 42 U.S.C. § 1396 et seq.
        2
            Social Security Act § 1611 (a)(1).
        3
            These include hospitals, nursing homes, psychiatric institutions, and intermediate care facilities.
        4
            20 Code of Federal Regulations (C.F.R.) § 416.414.
        5
            SSA Program Operations Manual System (POMS), section SI 02301.005.
        6
            POMS, section SI 00520.730.
Page 2 - The Commissioner


Reform Act of 1994 requires that nursing homes and other long-term care facilities
report admissions of SSI recipients to SSA within 2 weeks of their admission. 7 When
SSA does not receive timely notification of an SSI recipient’s admission, it may continue
to issue payments for months after the month of admission. To detect and stop
payments that have occurred, SSA conducts a monthly match with the Centers for
Medicare and Medicaid Services to identify SSI recipients’ admissions to nursing
homes. This match produces diary alerts, which SSA sends to field offices for
processing. 8

To accomplish our objectives, we reviewed SSA policies and procedures for SSI
recipients who entered Title XIX institutions. To gain an understanding of the diary alert
process and SSA’s relationship with Title XIX institutions, we visited six field offices. We
also visited 6 nursing homes and contacted 18 other Title XIX institutions to learn about
their relationship with SSA. In addition, we identified a population of 33,309 recipients
whom SSA overpaid $200 or more because they were admitted to a Title XIX institution
in Calendar Year (CY) 2004. From our population, we randomly selected 275 SSI
recipients to determine the type of institution. Further, we identified a population of
115,988 diary alerts SSA sent to field offices from August 2, 2004 through
August 1, 2005. 9 From our population, we randomly selected 275 alerts to determine
whether an overpayment occurred, and, if so, how much was overpaid because SSA
did not promptly process the diary alert. Appendix B contains a detailed discussion of
our scope and methodology.

RESULTS OF REVIEW

SSA continues to overpay recipients in Title XIX institutions millions of dollars each
year. For example, over the past 5 years, SSA has detected over $164 million in
overpayments to these recipients. Based on our analysis of a sample of overpayments
in CY 2004, individuals in nursing homes accounted for most of the overpayments. Our
analysis also showed that SSA overpaid recipients in Title XIX institutions an average of
over $1,300. We found that, in about 64 percent of the cases, SSA overpaid recipients
for 3 months or less, and the Agency overpaid about 13 percent of the recipients for
7 months or longer. SSA had not collected about 68 percent of these overpayments.




7
    Pub. L. No. 103-387. (1994).
8
    POMS, section SI 02310.064.
9
    This population represents the only diary alert data available at the time of our review.
Page 3 - The Commissioner


Despite efforts to prevent overpayments to SSI recipients in Title XIX institutions,
significant obstacles remain. SSA’s ability to prevent these overpayments is diminished
because some recipients or representative payees do not report changes in living
arrangements, and Title XIX institutions do not routinely report SSI recipients’
admissions. Furthermore, field office personnel do not always promptly process diary
alerts that identify SSI recipients’ admissions to nursing homes.

SSA CONTINUED TO OVERPAY MILLIONS TO SSI RECIPIENTS LIVING IN
TITLE XIX INSTITUTIONS

Each year, SSA overpays millions of dollars to SSI recipients who reside in
Title XIX institutions. Over the past 5 years, SSA has detected over $164 million in
overpayments to these recipients. While overpayments have not increased significantly
during this time, as shown in Figure 1, we believe SSA will continue to overpay millions
of dollars each year if it does not take additional steps to prevent them from occurring.

           Figure 1: Overpayments to SSI Recipients in Title XIX Institutions 10


                                      40
                                                                                 36
                                      35
                Dollars in Millions




                                           32                 32          33
                                                  31
                                      30
                                      25
                                      20
                                      15
                                      10
                                       5
                                       0
                                           2000   2001       2002        2003   2004
                                                         Calendar Year




10
     Provided by SSA as of December 12, 2005.
Page 4 - The Commissioner


Based on our analysis of a sample of overpayments in CY 2004, individuals in nursing
homes accounted for 84 percent of overpayments, as shown in Figure 2.

                        Figure 2: Nursing Homes Accounted for Most
                              of the Overpayments in CY 2004 11


                                             Long-term Care
                                               Psychiatric
                                   Hospitals                  Other
                                                Facilities
                                     5%                        2%
                                                   3%

                         Intermediate
                        Care Facilities
                              6%

                                                                          Nursing Homes
                                                                               84%




Our sample results showed that SSA overpaid recipients in Title XIX institutions an
average of over $1,300. We found that, in about 64 percent of the cases, SSA overpaid
recipients for 3 months or less, and the Agency overpaid about 13 percent of the
recipients for 7 months or longer, as shown in Figure 3. For one case in our sample,
SSA overpaid an individual for 27 months, resulting in a $14,122 overpayment, which
the Agency waived. In another case, SSA overpaid an individual for 19 months,
resulting in a $4,825 overpayment that has not been collected.




11
  The “other” category includes individuals who lived in multiple types of Title XIX institutions or in
facilities that we could not determine.
Page 5 - The Commissioner


     Figure 3: Months SSI Recipients in Title XIX Institutions Were Overpaid
                                           10-12
                                           Months Over 12
                                            3%    Months
                                                    2%
                              7-9 Months
                                  8%




                         4-6 Months
                            23%
                                                                       1-3 Months
                                                                          64%




Furthermore, our sample results showed that SSA had not collected about 68 percent of
the overpayments, as shown in Figure 4.

                        Figure 4: Overpayment Recovery Activities

                                                      Overpayment
         Overpayment Recovery Activities                                        Percent
                                                       Amounts

       Not Collected
               Continue to Pursue Recovery                  $159,062                43.9
               Waived                                         31,927                 8.8
               Deemed Uncollectible                           31,151                 8.6
               No Action Taken                                23,455                 6.5
       Total Not Collected                                  $245,595                67.8
       Total Collected                                      $116,389                32.2
       Total                                                $361,984                100.0
Page 6 - The Commissioner


OBSTACLES HINDERED SSA FROM PREVENTING OVERPAYMENTS

Despite efforts to prevent overpayments to SSI recipients in Title XIX institutions,
significant obstacles remained. SSA’s ability to prevent these overpayments is
hampered because some recipients or representative payees do not report changes in
living arrangements, and Title XIX institutions do not routinely report SSI recipients’
admissions. Furthermore, field office personnel do not always promptly process diary
alerts that identify SSI recipients’ admissions to nursing homes.

Recipients and Representative Payees Did Not Report Changes in Living
Arrangements

Although POMS 12 requires that recipients and representative payees report admissions
to Title XIX institutions, field office personnel told us individuals rarely report such
changes in living arrangements. This information would allow SSA to make prompt
adjustments to benefit payments and avoid overpayments. Field office personnel told
us that some individuals do not report because SSA may reduce recipients’ payments if
they enter a Title XIX institution. Other field office personnel told us that some
recipients and representative payees do not fully understand their responsibility to
report changes in living arrangements.

Title XIX Institutions Did Not Routinely Report Admissions

Field office personnel told us Title XIX institutions did not routinely report SSI recipients’
admissions to SSA, as required by law. 13 Field office personnel stated that institutions
do not routinely report such admissions because it is not a priority, and they have no
incentive to report. Also, SSA has no legal authority to levy fines and penalties for not
reporting.

Personnel at 14 (58 percent) of the 24 Title XIX institutions we contacted told us they
were not aware of the legal requirement to report to SSA SSI recipients’ admissions.
Several institution representatives stated they believed recipients, representative
payees, or Medicaid should report admissions to SSA. Two institution representatives
told us they only notify SSA of SSI recipients’ admissions when their facility applies to
become a recipient’s representative payee.

To facilitate the flow of SSI recipients’ admissions, POMS14 instructs field offices to
work closely with Title XIX institutions. However, only one of the six field offices we
visited had a liaison responsible for coordinating with institutions in its service area.
Two field office representatives told us they once had a liaison, but promotions or

12
     POMS, section SI 02301.005.
13
  Pub. L. No. 103-387 requires nursing homes, intermediate care facilities, and long-term care facilities to
report admissions to SSA.
14
     POMS, section SI 00520.730.
Page 7 - The Commissioner


retirements had eliminated the position. Furthermore, personnel at 22 (92 percent) of
the 24 Title XIX institutions we contacted told us that field office representatives did not
routinely contact them about SSI recipients’ admissions. Some institution and field
office representatives agreed that a liaison would facilitate the flow of SSI recipients’
admissions and help prevent overpayments.

Field Office Personnel Did Not Always Process Alerts Promptly

Based on our analysis of a sample of alerts from August 2, 2004 through
August 1, 2005, field office personnel did not always promptly process diary alerts that
identified SSI recipients in nursing homes. To determine whether SSA processed diary
alerts promptly, we added 30 days to the date the field office received the alert. We
calculated overpayments beginning with the subsequent month. 15 We estimate that
SSA did not promptly process 7,592 alerts, resulting in almost $5 million in
overpayments. 16 Our sample results showed that, on average, field office personnel did
not process alerts for about 2 months (not including the 30-day grace period), resulting
in an average overpayment of about $653. For one case, staff did not process an alert
for 10 months, resulting in a $2,265 overpayment. In another case, staff did not process
an alert for 3 months, resulting in a $2,286 overpayment.

Although SSA procedures require clearance of diary alerts, POMS does not specify a
time frame for personnel to process them. 17 While some field office managers told us
that staff should clear alerts within 30 days, most field offices we visited did not have
procedures in place to ensure staff did so. Field office personnel acknowledged that
diary alerts are helpful because they serve as the primary means for learning about SSI
recipients’ admissions to nursing homes. 18 However, if field office personnel do not
process diary alerts promptly, SSA will continue to contribute to overpayments. Should
the situation remain unchanged, we estimate that, over the next year, SSA will not
process about 7,500 alerts promptly, resulting in almost $5 million in additional
overpayments. 19



15
  Additionally, if SSA did not process the diary alert by the recurring cutoff date each month, we did not
consider the next payment an overpayment.
16
  We identified 18 (7 percent) alerts (resulting in $11,757 in overpayments) that SSA did not process
promptly from our review of 275 sample cases.
17
     POMS, section SI 02310.064.
18
  According to a 2001 SSA report, Causes of Supplemental Security Income Overpayments Fiscal Years
1996-1999, Office of Quality Assurance and Performance Assessment, Office of Assistance and
Insurance Program Quality, overpayments to recipients in Title XIX institutions decreased from
$44.7 million in Fiscal Year 1996 to $31.8 million in Fiscal Year 1999 because of the nursing home
match.
19
  We based this estimate on the projected number of alerts and amount of overpayments due to SSA not
promptly processing diary alerts during our audit period.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Overpayments to SSI recipients in Title XIX institutions continue to be a significant
problem. SSA continues to overpay millions of dollars each year and does not collect
most of the overpayments. These overpayments are debts owed the Government and,
if not collected, result in taxpayers financing unwarranted program expenses. If SSA
does not take additional steps to identify recipients in Title XIX institutions and promptly
adjust their monthly payments, the Agency will continue to overpay millions of dollars.
As such, we recommend that SSA.

1. Reemphasize to SSI recipients and representative payees the importance of
   reporting admissions to Title XIX institutions. For example, we believe the Agency
   could develop a targeted outreach effort to inform selected recipients and
   representative payees of their responsibility to report admissions to Title XIX
   institutions.

2. Remind field office personnel of their responsibility to (1) maintain ongoing contact
   with Title XIX institutions in their service area, (2) use regular visits to encourage
   cooperation, and (3) establish procedures for institutions to report promptly on
   events that affect eligibility and payment determination.

3. Establish methods by which field office personnel should promptly resolve diary
   alerts resulting from recipients’ admissions to Title XIX institutions and monitor
   compliance with these procedures.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.




                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
CY            Calendar Year
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
                                                                        Appendix B

Scope and Methodology
To accomplish our objectives, we performed the following steps.

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as other relevant Federal laws and regulations.

•   Reviewed prior audit reports.

•   Visited two field offices in each of the following States—Illinois, California, and
    Florida. During our site visits, we interviewed staff to determine their procedures for
    processing diary alerts that identify Supplemental Security Income (SSI) recipients’
    admissions to nursing homes. We also determined whether field offices had a
    liaison responsible for coordinating with institutions in their service area.

•   Visited 6 nursing homes and contacted 18 other Title XIX institutions to obtain an
    understanding of their procedures for reporting SSI recipients’ admissions and to
    determine whether field offices had established a liaison responsible for coordinating
    with them. We also determined whether the institutions were aware of their
    reporting responsibilities.

Also, to accomplish our objectives, we reviewed two separate samples.

Sample of SSI Overpayments to Recipients in Title XIX Institutions

•   Randomly selected a sample of 275 SSI recipients who were overpaid $200 or more
    because of admission to a Title XIX institution. We selected the sample from
    33,309 SSI recipients who were overpaid $200 or more because of admission to a
    Title XIX institution during Calendar Year 2004.

•   We used SSA’s Modernized Supplemental Security Income Claims System, the
    Centers for Medicare and Medicaid Services’ Nursing Home Compare website and
    other Internet websites to determine the type of institution. When necessary, we
    also reviewed case folders and contacted field offices or Title XIX institutions to
    determine the type of institution.




                                            B-1
Sample of Diary Alerts that Identify SSI Recipients’ Admissions to Nursing Homes

•    Randomly selected 275 diary alerts that identify SSI recipients’ admissions to
     nursing homes. We selected the sample from 115,988 alerts SSA sent to field
     offices from August 2, 2004 through August 1, 2005.

•    For each of the 275 diary alerts, we reviewed SSA’s Supplemental Security Record
     and Modernized Supplemental Security Income Claims System to determine
     whether an overpayment occurred and if so, how much resulted from SSA not
     processing the diary alert promptly.

•    To determine whether SSA processed diary alerts promptly, we added 30 days to
     the date the field office received the alert. Additionally, if SSA did not process the
     diary alert by the recurring cutoff date each month, we did not consider the next
     payment an overpayment. We calculated overpayments beginning with the
     subsequent month.

The following table shows our sample size, results, and appraisal.

Table 1: Sample Results and Projection on Diary Alerts

                    SAMPLE ATTRIBUTE AND VARIABLE APPRAISAL
    Total Population of Diary Alerts Sent to Field Offices From
    August 2, 2004 through August 1, 2005                                            115,988
    Sample Size                                                                           275
                                     Attribute Projections
    Number of Alerts in Sample SSA Did Not Process Promptly                                   18
    Estimate of Alerts in Population SSA Did Not Process Promptly                       7,592
    Projection—Lower Limit                                                              4,958
    Projection—Upper Limit                                                             11,076
                                   Variable Projections
    Overpayment Amounts in Sample Resulting from SSA Not Processing
                                                                                     $11,757
    Alerts Promptly
    Estimate of Overpayment Amounts in Population Resulting from
    SSA Not Processing Alerts Promptly                                            $4,958,930
    Projection—Lower Limit                                                        $2,331,878
    Projection—Upper Limit                                                        $7,585,982
    Projections made at the 90-percent confidence level.




                                              B-2
The SSA entities audited were the Offices of the Deputy Commissioners for Disability
and Income Security Programs and Operations. We relied primarily on the
Supplemental Security Record to complete our review and determined that the data
were sufficiently reliable to satisfy our audit objectives. We did not verify the
completeness or test the accuracy of information submitted on the diary alerts. We
limited our review of internal controls to the steps identified above. We conducted our
work from July 2005 through February 2006 in accordance with generally accepted
government auditing standards.




                                           B-3
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      June 15, 2006                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Supplemental Security Income
           Overpayments to Recipients in Title XIX Institutions" (A-08-06-16024)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS TO
RECIPIENTS IN TITLE XIX INSTITUTIONS” (A-08-06-16024)

Thank you for the opportunity to review and provide comments on this draft report. We
recognize the importance of being informed of all living arrangement changes in a timely
manner, including those which involve moves into Title XIX institutions, whenever a
Supplemental Security Income (SSI) recipient is involved. It has always been the Agency’s
intention and goal to ensure that recipients receive the correct amount of benefits and that the
Agency avoid any type of overpayment.

Recommendation 1

Reemphasize to SSI recipients and representative payees the importance of reporting admissions
to Title XIX institutions. For example, we believe the Agency could develop a targeted outreach
effort to inform selected recipients and representative payees of their responsibility to report
admissions to Title XIX institutions.

Comment

We agree in part. We will review the existing instructions to our field offices to determine if
they should be revised to more clearly emphasize our responsibility in communicating to SSI
recipients, and/or their representative payees, the importance of reporting admissions to Title
XIX institutions. In the meantime, we have already issued an Administrative Message (AM-
06128, on June 6, 2006) reminding our employees to focus on these reporting responsibilities
during their interviews with SSI recipients and/or their payees.

We will need to investigate further the feasibility of a targeted outreach effort. The Centers for
Disease Control and Prevention (CDC) reports that the average age at admission to a nursing
home is 82.6 years and nearly two-thirds of those admitted have some form of cognitive or
mental disorder. Thus, the recommended effort would be targeting the segment of the SSI
population least able to understand or remember to report their admission. Further, SSA records
indicate that fewer than 8 percent of SSI recipients over age 65 have a representative payee.

Recommendation 2

Remind field office personnel of their responsibility to: 1) maintain ongoing contact with Title
XIX institutions in their service area; 2) use regular visits to encourage cooperation; and 3)
establish procedures for institutions to report promptly on events that affect eligibility and
payment determination.




                                                C-2
Comment

We agree. As mentioned in our response to recommendation 1, AM-06128, issued on June 6,
2006, reminded employees of their responsibilities. To further assist in communicating the
requirement to report changes in living arrangements, SSA has also pursued ongoing outreach
efforts with those agencies that assist senior citizens and disabled individuals.

Recommendation 3

Establish methods by which field office personnel should promptly resolve diary alerts resulting
from recipients’ admissions to Title XIX institutions and monitor compliance with these
procedures.

Comment

We agree. We have released AM-06128 that included a reminder to field offices to monitor
diary workloads through the SSI Diary Workload web site on Chinet to ensure these diaries are
worked in a timely manner.




                                              C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1605

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Neha Smith, Senior Auditor

   Lauren Butts, Auditor

   Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-08-06-16024.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
